No.A-_ _

Jf n tbe .$Upteme (!Court of tbe mlniteb .$tate~
KENNETH DANIELS,

Applicant,
V.

UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE
I, Michael B. Kimberly, counsel for petitioner and a member of the Bar of this
Court, certify that on this 29th day of March, 2019, I caused three copies of the
Application for an Extension of Time Within Which to File a Petition for a Writ of
Certiorari to the United States Court of Appeals for the Third Circuit to be served
by overnight mail and electronic means on the following:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
I further certify that all parties required to be served have been served.
Sincerely,

Michael B. Kimberly

